                                                       NATIONAL SCIENCE FOUNDATION 

                                                        OFFICE OF INSPECTOR GENERAL 

                                                          OFFICE OF INVESTIGATIONS 


                                               CLOSEOUT MEMORANDUM 


Case Number: AI0080063                                                                       Page 1 of 1



                  Our office was informed of a University! IRB that issued a finding of a "serious issue of
         non-compliance" related to activities ofPI2 in a science education project. On appeal, the full
         IRB board revised the finding to one of non-compliance, and put in place an extensive periodic
         overview of work supported by this award, and additional IRB training for those involved. The
         study now has an amended and current IRB approval. Additional requirements put in place by
         the full IRB should deter future instances of deviations from regulation. The NSF Program
         Officer is aware of the amended and approved IRB.

                   Accordingly, this case is closed.




NSF OIG Form 2 (1 1102)
